IN TIE

SUPREME COURT OF THE UNITED STATES

ALONSO SANCIHZ OCHOA
Petitioner
V.

UNITED STATES OF AMERICA,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

APPENDICHS

APPENDIX A|1
(OPINION OF THE UNITHD STATES COURT
OF APPHALS FOR THE FIFTH CIRCUIT)

Case: 19-11181

Document:00515588425

Page: 1

DateFiled: 10/02/2020

"ntteb ©ttltes Court ot 9ppea[S
tor toe Jftftb ®trtutt

United States Court Of Appeals
Fifth Circuit

FILED
October 2, 2020

No. 19-11181

Lyle W. Cayce
Clerk
UNITED STATES OF AMERICA,

Plalrulff-Apfiellee,
»ersus
ALONSO SANCHEZ OCHOA,

Defiendant-Amellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-176-1

Before SMITH, CLEMENT, and OLDHAM, O¢."#¢'Z/#JgrJ.
ALENDFLEW S . OLDHAM, Circuit chdge..

The question presented is whether a defendant can demand that his
federal sentence run concurrently with a state sentence without establishing

that both are premised on the same conduct. The district court said no. We
agree and affirm.
I.

A bank surveillance camera caught Ochoa cashing a stolen check. It

was addressed to "Zoetis. " Ochoa previously registered the name Zoetis as

a "Doing Business As" ("DBA") in Dallas County. That DBA allowed

Case: 19-11181

Document:00515588425

Page: 2

DateFiled: 10/02/2020

No. 19-11181

Ochoa to complete the transaction using his own Texas driver' s license, date
of birth, and signature. Bank records show he cashed 12 more stolen checks

the same way-each time using his own information and a corresponding
DBA. Ochoa pleaded guilty to one count of stolen mail in violation of 18
U.S.C. § 1708.

His Pre-Sentence Report ("PSR") reflected no other pending
charges.Ochoaobjectedonthegroundthathehad"statechargespendingin

Tarrant County, Dallas County, Hood County, and Ellis County in the State
of Texas." Because Ochoa contended the state charges were based on
"relevantconducttothisfederalcharge,"heaskedthathis"federalsentence

be ordered to run concurrent with any state sentences he may receive. " Scc
U.S.S.G. § 5G1.3(c). The Government said it was "not opposed to an order

that the defendant's federal sentence . . . run concurrently with any related
state charges," and it "would defer to the U.S. Probation Office's

determination. " In an addendum to the PSR, the Probation Office reported
that "[a] record check revealed a pending offense out of the Ellis County

District Attomey's Office; however, no court information was available. "
At Ochoa's sentencing hearing, defense counsel again asked that the

district court order Ochoa's federal sentence to inn concurrently with any
subsequent state sentences. Counsel pointed the district cout to the
Probation Office's addendum, which noted there was no court information
on the reported Ellis County charge. After a pause, the judge said, "Well,

withoutmoreinformation,Idon'tseehow1cansayconcurrentwithpending
related offenses. I think it's going to have to be determined by those
counties. "

The district court sentenced Ochoa to a within-Guidelines term of 27

months in prison. The district court didn't specify whether the federal
sentence would run concurrently with or consecutively to any subsequent

2

Case: 19-11181

Document:00515588425

Page: 3

DateFiled: 10/02/2020

No. 19-11181

state sentence. Our precedent requires us to presume the latter. Scc I/„¢.£e¢
Sf#fej tJ. C¢"d£.¢, 454 F.3d 468, 475 (5th Cir. 2006) .
11.

Ochoa argues that the district court's failure to impose a concurrent
sentence violates Section 5G1.3(c). We have previously recognized this

precise argument as a procedural-reasonableness challenge. Scc, c.g. , U#¢.fc¢
Sfzzzcf p. cJofe#fo#, 760 F. App'x 261, 263 (5th Cir. 2019) (per curiam). But

Ochoa challenges his consecutive sentence as substantively unreasonable.

Either way, we review for abuse of discretion and flnd none. Sac G¢// p. U„¢.£cd
Sf#£€5, 552 U.S. 38, 51 (2007).

A.

"After [the Supreme] Court' s decision in U#¢.JgJ sf#fgf p. Boofrcr, 543
U.S. 220 (2005), the Guidelines are advisory only. But a district court still

mustconsultthoseGuidelinesandtakethemintoaccountwhensentencing."
fJ%grfeef ». U#¢.£€d sJzzJcf,138 S. Ct.1765,1772 (2018). Section 5G1.3(c) advises

thatwhen"astatetermofimprisonmentisanticipatedtoresultfromanother
offense that is relevant conduct to the instant offense of conviction . . . the

sentence for the instant offense shall be imposed to run concurrently to the
anticipated term of imprisonment. " U.S.S.G. § 5G1.3(c). Thus, to trigger

this Guideline provision, the state sentence must be both (1) "anticipated"
and (2) based on conduct "relevant" to the federal offense. U.S.S.G.
§ 5G1.3(c).

Section 5G1.3(c) does not define ``anticipated." Ja¢.d. But we have

treated pending state charges as "anticipated." Scc, c.g., I/"¢.Jc¢ SztzfgJ ".
I,oo"ey, 606 F. App'x 744, 748 (5th Cir. 2015) (per curiam) (defining an
" anticipated " state sentence as one based on a pending state charge). B#f jicc
I/#¢.f&¢SJ#fgf».jwcconJ¢#,763F.App'x369,371(5thCir.2019)(percuriam)

("While § 5G1.3 applies to `anticipated' sentences, [the appellant] cites no

3

Case: 19-11181

Document:00515588425

Page:4

DateFiled: 10/02/2020

No. 19-11181

authority requiring the district court to apply its provisions when the
likelihoodthatafuturesentencewillbeimposediswhollyspeculative.").We

assumeforthesakeofargumentthatOchoa'spendingchargeinEllisCounty
is " anticipated. "

But that charge also must be "relevant" to Ochoa's stolen-mail

conviction. The Guidelines define "relevant conduct" as "part of the same
course of conduct or common scheme or plan as the offense of conviction. "
U.S.S.G. § 1B1.3(a)(2). And Section 5G1.3(c) incorporates that definition.
U.S.S.G. § 5G1.3(c).

At Ochoa's sentencing hearing, defense counsel amorphously

asserted, "there may be some scattered state prosecutions of relevant
conduct in Ellis, Tarrant, Hood and maybe Johnson Counties." He
suggested that Ochoa's "federal sentence could at least be concurrent with

any of those." When the district court inquired about the charges, counsel
pointed to the PSR's addendum. The last page documented a single Ellis
County charge for which "no court infomation was available. "

ThatisallOchoapresented.HedidnotpresentevidencethattheEllis

County offense was "part of the same course of conduct" as the stolen-mail
offense. U.S.S.G. § 1B1.3(a)(2). Nor did he present evidence that the

offenses were part of a " common scheme or plan. " Jb¢.d. So the district court
did not err by concluding the two were not related. CJ U7#.fc¢ Sf&£€f p.
fJo#o#, 950 F.3d 237, 243 (5th Cir. 2020) (finding ``a temporal connection

between the offenses . . . insufficient to establish a relevant conduct
determination"), 4c£8.£fo# /or clot. ¢/G¢ (U.S. July 16, 2020) (No. 20-5091);

I/"¢.fg¢SJ#£cr p. rcrr¢z4f, 815 F. App 'x 767, 772 (5th Cir. 2020) (per curiam)

(upholding as "plausible" the district court's conclusion that two drug
offenseswerenotbasedon"relevantconduct").Andwithoutastateoffense
relevant to Ochoa' s federal offense, Section 5G1.3(c) is inapplicable.

4

Case: 19-11181

Document:00515588425

Page: 5

DateFiled: 10/02/2020

No. 19-11181

8.
It is unclear whether Ochoa also intends to challenge his within-

Guidelines sentence as substantively unreasonable. If he intends such a
challenge, it fails.

We review "sentences for `reasonableness' measured against the
factors listed in 18 U.S.C. § 3553(a). " U„¢.f8¢ SfzzJcf ». ji¢£feed, 687 F.3d 637,

644 (5th Cir. 2012) (citation omitted). Within-Guidelines sentences are
"presumptively reasonable and [are] accorded great deference on review. "

C¢#d¢.¢,454F.3dat473.Ochoacanrebutthispresumptiononly"byshowing

that the sentence does not account for factors that should receive significant
weight, gives significant weight to irrelevant or improper factors, or
represents a clear error of judgment in balancing sentencing factors."
JZ¢£Aed, 687 F.3d at 644,

Ochoa does not question the district court's application of the
§ 3553(a) factors. Nor does he contest the length of his federal sentence.
Instead, he challenges the length of time he on¢.gfeJ be imprisoned ¢f he's

convicted and sentenced on the Ellis County charge. Ochoa says this error

could double the length of his sentence. Therefore, Ochoa concludes, "his
substantial rights have been harmed. " t

t The only question before our court is the legality of Ochoa's federal sentence.
Insofarashebaseshisprejudiceargumentonpotentiafitiesinstatecourt,however,wenote
that state law could give him a second opportunity to argue that his sentences should run
concurrently-if and when Ochoa is convicted and sentenced on the Ellis County charge.
See TEX. CoDE GRIM. PRoC. art. 42.08(a) (granting Texas judges discretion to order
thatsentencesrunconcurrentlywhenadefendantisconvictedofmultipleoffenses);CooZ
p. Sf%fg, 824 S.W.2d 634, 643 (Tex. App.-Dallas 1991) (concluding article 42.08 allows
``cumulation of state and federal sentences"), Pcz. #¢'4 828 S.W.2d 11 (Tex. Grim. App.
1992) (en bane).

5

Case: 19-11181

Document:00515588425

Page: 6

DateFiled: 10/02/2020

No. 19-11181

There are at least two problems with Ochoa's argument. Most
importantly, it does not address the § 3553(a) factors, which provide the only

means for rebutting the presumption of reasonableness. SccJZ¢£¢¢4 687 F.3d
at 644. And secondarily, " ` [m]ere objections ' " without evidence to support

them cannot rebut the presumption of reasonableness. fJo#o#, 950 F.3d at
242 (quoting U#¢tg¢ Sfzzft:i ». P#7i¢cr, 133 F.3d 322, 329 (5th Cir. 1998)).

Ochoa did not submit "affidavits or other evidence . . . to rebut the

information contained in the PSR," so the district court was entitled to
adopt the PSR's " `findings without further inquiry or explanation. ' " Jaz'd.
(quoting I/#¢.fcd S£#£cJ ». y¢.fca!/, 68 F.3d 114,120 (5th Cir.1995)).

AFFIRRED.

6

APPHNDIX A-2
(DISTRICT COURT JUDGMENT IN A CRIMINAL CASE)

Case4:19-cr-00176-Y

Document51

Filed 10/21/19

Page 1 of4

PagelD 77

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMuNT IN A CRIMINAL CASH

V.

Case Nuniber: 4: 19-CR-176-Y(1)

ALONSO SANCHEZ OCHOA

Robert J. Boudreau, assistant U.S. attorney
Brett D. Boone, attorney for the defendant

On June 5, 2019, the defendant, A]onso Sanchez Ochoa. entered a plea of guilty to count one of the onecount information. Accordingly, the defendant is adjudged guilty of such count, which involves the following offense:

TITLE & SECTION

NATURE OF OFFENSE

18 U.S.C. § 1708

Possession of stolen Mail

OFFENSE CONCLUDHD

COUNT

March 22, 2019

The defendant is sentenced as provided in pages two through four of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(I), as advisory only.
The defendant shall pay immediately a special assessment of Sloo.00 for one of the one-count information.

The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fmes, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed October 17, 2019.

UNITED STATES DISTRTCT JUDGE
Signed October 2|9 20] 9,

Case4:19-cr-00176-Y

Document51

Filed 10/21/19

Page2 of4

PagelD 78

Judgment in a Criminal Case
Defendant: Alonso Sanchez Ochoa
Judgment -- Page 2 of 4

Case Number: 4:19-CR-176-Y(1)

IMPRISONMENT
The defendant, Alonso Sanchez Ochoa, is hereby coinmitted to the custody of the Federal Bureau of Prisons
to be imprisoned for a term of 27 months on count one of the one-count infomation. This sentence shall ruii
consecutively to any future sentence that may be imposed in case no. 4: 13CR00077-I in the United States District
Court for the Eastern District of Texas, Sherman division.

The Court recommends that the defendant be placed in the Institution Residential Drug Abuse Treatment
Program, if eligible, and that he be incarcerated within the Northern District of Texas.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a tern of tliree
years on count one of the one-count infomation.
While on supervised release, the defendant shall comply with the standard conditions of supervision adopted
by the United States Sentencing Commission at §5Dl .3(c) of the sentencing guidelines, and shall:
( 1)
( 2)
( 3)

( 4)
( 5)
( 6)
( 7)

( 8)
( 9)

(10)
(11)

(12)
(13)

(14)
(15)
(16)
(17)
(18)

not leave the judicial district without the permission of the court or probation officer;
report to the probation officer in a manner and frequency directed by the court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other farfuly responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable I.easons;
notify the probation officer within seventy-two (72) hours of ally change in residence or
employment;
Tefraln from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold. used, distributed, or administered:
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;

permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioiied by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent ofa law enforcement agency
without the permission of the Court;
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requii.ement, as directed by the probation officer;
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection ofDNA as directed by the probation officer as authorized by the Justice
for All Act of 2004;
report in person to the probation office in the district to which the defendant is released within 72
hours of release from the custody of the Federal Bureau of prisons;

Case4:19-cr-00176-Y

Document51

Filed 10/21/19

Page 3 of4

PagelD 79

Judgment in a Criminal Case
Defendant: Alonso Sanchez Ochoa
Case Number: 4:19-CR-176-Y(1)

Judgment -- Page 3 of 4

(19)

The defendant must refrain from any unlawful use of a controlled substance. The defchdant must
submit to one drug test within 15 days of release from imprisonment and at least two periodic drug
tests thereafter, as determined by the court;

(20)

The defendant is ordered to make rest].tution in the amount of $2,492.10. Restitution shall be paid
to the U.S. District Clerk, 501 West loth Street, Room 310, Fort Worth, Texas 76102, for
disbursement to I.L.P.E.Q. Tf, upoli commencement of the term of probation, any part of the
$2,492.10 in restitution ordered by this judgment remains unpaid, the defendant shall make
payments on such unpaid balance at the rate of at least $50 per month, the first such payment to be

(21)

(22)

(23)

made no later than 60 days from the date of this judgment with another payment to be made on the
same day of each month thereafter until the restitution is paid in full;
The defendant shall provide to the probation officer complete access to all business and personal
fmancial informati on ;
The defendant shall participate in mental health treatment services as directed by the probation
officer until successfully discharged, which services may include prescribed medications by a
licensed physician, with the defendant contributing to the costs of services rendered (copayment) at
a rate of at least $25 per month; and
The defendant shall participate in a program approved by the probation officer for treatment of
narcotic or drug or alcohol dependency that will include testing for the detection of substance use,
abstaining from the use of alcohol and all other intoxicants during and after completion of treainent,
contributing to the costs of services rendered (copayment) at the rate of at least $25 per month.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
The defendant is ordered to make restitution, in the amount of $2,492.10. Restitution shall be paid to the
U.S. District Clerk, Sol West loth Street, Room 310, Fort Worth, TX 76102, for disbursement to:
I.L.P.E.Q.

3658 W. Highway 377
Grant)ury, Texas 76048
$2,492.10

Check No. 5988, Marcli 22, 2019

Restitution is due and payable immediately, but if, upon commencement of the term of supervised release,
any part of the $2.492.10 restitution ordered by this judgment remains unpaid, the defendant shall make payments on
such unpaid balance at the rate of at least $50 per moiith. the first such payment to be made no later than 60 days after
the defendant's release from confinement and another payment to be made on the same day of each month thereafter
until the restitution is paid in full.

However, no restitution shall be payable during incarceration from funds deposited into the defendant's
irmate tnist account or paid to the defendant for work performed during incarceration.

Case4:19-cr-00176-Y

Document51

Filed 10/21/19

Page4of4

PagelD80

Judgment in a Criminal Case
Defendant: Alonso Sanchez Ochoa
Case Number: 4: 19-CR-176-Y(1)

Judgment --Page 4 of4

RETURN
I have executed this judgment as follows:

Defendant delivered on
with a certified copy of this judgment.

United States marshal

deputy marshal

